  FY      NATIONAL DRG VALIDATION STUDY:
       1985



PEER REVIEW ORGANIZATION CODING ACCURACY




              RICH P. KUSSOW
              INSPECTOR GENERA




 12-9                             AU 199

                             EXECUTIV SUMMARY


PURPOSE

Th inpecton analyzs the accuracy of peer review organtion         (PRO)   cog
diagnosis related groups (DRGs).

BACKGROUND
                                        rcced 7,050 dicharges strtied by
The"F 1985 National DRG Valdation Study(OIG)
hospita siz. The Ofce of Inpeor Genera
                                             locted PRO rcabstrctons for
23.9 percent of the saple. Th subsple accteJy represented the underlyg
                                                                      confounders.
population by age, sex diagnosis related groups, and other probable

FIDINGS

    The PROs   cocc    coed 78. 1 percnt of reabstractons,    asigcatl lower
    proporton than the 81.8 percent accteJy pad by the       Fis Intermedes.
                                                                       wrong.
 . A PRO that changed a DRG had a 90.5 percent chace of being
                                                               COD.poundig
 . On average, the PROs upced their erroneous DRG reabstrctons, at least
   the fiancial effect of their lower  cog
                                       acccy. These errors causd
    $172.9 mion   in overpayments   for Fisca   Yea 1985.

 RECOMENA110NS
     The Health Care FinancigAdmitrtion (HCFA) should determe whether the
     proporton of PRO rcabstrcton errors ba deceaed

     The HCF A should determe       whether the Super   PRO alo fids th   ditributon of

     chges to PRO coing.
      The HCFA should determne whether internal qualty controls of the PROs increae
      the acccy of their DRG reabstrctons.
                                                     the HCF A stated that it has
  In the AprD 24 comments on a draf of th inpeon,
  taen a number of  actons to improve the accacy of PRO coing. We agree that
  thes actions respond to the intent of these remmendations.   The OIG is now
  collecg FY 1988 PRO cog data. Comparon of           these independentl generated
                                                                     cog
  data sets wil meaure the progres achiev by the HCFA in improvg PRO
  accacy.
            .......    ...........
                      ........
                          ........
                         .....
                        .....     ........................................
                            ........
                                 ......
                                     ......
                                        .....   ............
                          .................................
                                        ............
                                               ...    .....
                                                   ......   .........
                                                      ........
                                                      .......
                                                       .........
                                                           ......
                                                                .....
                                                              .....
                                                       ............   . .............
                                                       ................
                                                                     .....
                                                                    ...
                                                       ...............      ...........
                                                                         .................
                                                                          .......
                                                                    ..............
                                                               ......
                                                                  .....  ......   .........
                                                                            . ...... .......
                                                                                       . .. .. .. ..
                                                                                .........
                                                                                        ....... ................
                                                                                         ...... .......  .......
                        . . . . . . -. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. ........................... . . . . .




                                      TABLE OF OONTENTS


EXCU SUMY

TAB     OF CO

INODUcnON
      BACKGROUN. .

      MEODOLOGY

FIINGS
      PRO

      PRO CODING      ACCCY
      DRG   EFCT
RECO            A110NS

Apix        PRO reew by hopita               demography


Appedi      PRO revew by patient demogrphy. . . . . . .

Apdi        PRO cog acc by hospita demography
Ap          F1 cog accracy by hospita demogrphy. .

 Ap
            PRO coing acacy by patient demogrphics

 AplX        Statitica methocology
                                   INTRODUCTION


BACKGROUND


In 1972 Congress  established the Professiona Stadads Revew Orgations (PSROs)
                                                            ensurg that al servces
as part of the Socal Securty Act. It charged the PSROs with
deliered under Medicae and Medicad were medca neCss,
                                                               conformed to
appropriate professional stadards and were deliered     effcientJ and ecnomicay.
1982 however, Congress concluded that the PSRO
                                                    strcte restrcted revew
inovtion necessa to lit        esatig heath cae cots and protec agait por
quality of cae. Therefore, under the Peer Revew Improvement Act97-24Title 1, Subtitle C
                                                                           Congress
of the Tax Equity and Fisca Responsibilty Act of 1982, Public Law
crted the Utition and Qualty Control       Peer Revew Orgations (PROs). Ths
                                                           Health and Hum
legislation required the Seo/eta of the U.s. Deparent of


the PRO.
Servces (DllS) to contract with either "physician-sponsored"
PROs. Each 2-year contract s "scpe of   work" defied the
                                                             or "physician-accss
                                                         actties



                 scope of work (19841986), the PROs recived
                                                                  to be performed by



                                                                 performance-based
Under the fit
objeces to counter potential negatie incenties      po by the new prospee
                                                                    litig servces
                                     PPS, hospita could reduce cots by
payment sytem (PPS). Under the 
            raing       the number of adJsions- or

and shortenig stays and increas payments by
 upcing the diagnosis related groups (DRGs). To control these trends, the PROs had
 thee admsion related goal:

 . Redce the number of            ecessa admions.

                                                               and procural inormation

 . Veri that payment coes        conformed to the diagnostic
    in patient recrds.
     Revew caes of    trfer or redmion ocg              with 7 days of a prevous
     dihage.
 The fi scpe of work gave the PROs four method for
                                                           cug     utition or        quaty
 deficiencies: Education, intensifed revew, denial of payment, and recmmendation
                                                          substatial violations" in a
 a DHHS Ofce of Inspeor General (OIG) sacton for "
  substatial number of caes" or "gros    and   flgrt violation in a single ca.   Each
  cotr al       included fie   quaty of cae objectes.

    Reduce   unecss   readmions.
    Umit prevntable complications.

  . Reuce unnecssry surgery.

  . Loer       the rik of mortalty.


  . Lit       avoidable postoperati     complications.
                                                                             for exactg data
. To    att these goal and objeces, the PROs recived
                                               In the
                                                      guideli
                                                                    fit scpe of   work, these

  about the physician and provders in their area
  included:


        Five percent radom saple of admisions
        Pacemaker cases
                     hospita to other hospita except swg bed

        Trafers from PPS
    Readmisions with 7 days of dichage

  . DRG reabstracton of DRG 46 and DRG 462 bils

         Statitical outliers



  Under the PPS, hospita recive a pr-etablihcd payment for each dicharge, based
                                                              dihages into
  upn the DRG to which the dicharge groups. The PPS clasifed
                            use siar amounts of hospita resource baed on
  clca coherent groups evuation
                        tht
                                                                           , sex,
  vables such as diis;             and treatment procures; aDd patient age
                                                 asted relatie weight,   which
   and diharge statu. Each of the 473 DRGs had an
   represented the average cot for hospita cae provded to patients with dignoses
                                                cot of al patients. The hospita recived
   gruping to that DRG as a proporton    of the
   th payment independent of the actl
                                          length of hospitation or cot of treatment for
                                                    surlus from patients coumg less
   the indivdual patient. The hospita retaed any                          consumg
   th    the   exed   amount of resurces, and absorbe a los for patients
   more.
                                                  to check the acccy of DRG payments
    Optiona, the PROs reabstrcted PPS bildignosc         and procur inormation from
    to hospitals. The PRO revewers compard
    the medca recrd to the nartie dignoses and
                                                     proures attesed to the attendig
                                        natieinormation to ICD9- (International
   phyic      and the conversion of
                        Die)coes. A regitered recrds admitrtor
                                                                             or an(R)
    Cascation of                                            the rcbstrcton.
    acedte     recrds tehncian (ART) genera              superv


                                                                       Disge             16. 547. 674
       Dmg their fit scope of work, the PROs claed                     PRO                   576.
       have reabstrcted . 33. 7 pcrcent of PPS bil. Among
                                                                        (Pernt)               (33.

       radomJ seleced disharges, they found 4.8 pcrcent to                     Mong Co..
                                       contrt WI
                                                                                              Repor1
          m error.        error rate                          9.2       So' PP
                                                                        on pp Mooc Ac. Feb. '2.1887

       percent reported by the SupcrPRO and the 20.
                                                    8 pcrcent 


                                              VaHdatioD
                                                                Tab 1.        PRrfielS&Rthfi
                                                                                    .
       repoed by the "F 198 National DRG                               8C


       Study Fin Report.
                                                                                          (%)




Sources both inide and outside
                               of the Rev caegor                              DRG error
DHHS studied PRO performance under
the fit scpe of work. In the second         Ra sae
                                      Intensie
                                                                   975, 280
                                                                   319,
                                                                                 47,
                                                                                 18,721
                                                                                           (4.
                                                                                           (5.
scpe of work (19861988), the Health   DRG                          160,           18,     (11.
Cae Financig Admitration (HCFA) Otr                                121, 505      141,      (3.

adopted many of their fidings to

strengthen PRO revew. These changes Tot                                          22,          (4.

                                                            vain re
                                                                    576,
included exanding revew from               Tab 2:    DR
                                                                              fo th fi PR 

redmion with 7 days of a prior             at
diharge to readmision with 15 days
                                                dihages for evd ence of prematue
of a prevous discharge. The PROs also sapled hospitas   with unexlaied statitical
dihage or trnsfer. In addition, they reewed          PROs recived a stadad set of
outlers in mortlity rates and utition pattern. The          alo revewed short. stays
quaty sceens to apply in aU caes seleced for review. They           progr. Al
in the hospital and developed and implemented communty outreach
rerds seleced for reyew were subjeced     to DRG vadation, and
                                      recrds profesional on  its  the PRO bad to
                                                                 sta.
 have at leat one credentialed medica

 In devloping the thrd scope of work,

                                      the HCFA drew on exensive analis of PRO
                           scpe of  work. It alo incorprated changes mandated in
                                                         of the send scpe of work:
 actties under the second 

 the followg public laws passe since the implementation
                                                      Recnciation Act of 1985
 Public Law 99-272, the Consolidated Omnibus Budget
                                                    Recnciation Act of 198 (OBRA
 (COBRA); Public Law 99-509, the Ombus Budget
 86); and OBRA 87.
                                             with the send, but added seera
 The thd scpc of work remaed conant                                   contrctors
                                                          more consistent acros
 signcat amendments.   To make PRO actties
                                                          pla under which the PROs follow a
 the HCF A develope a baic quaty intervntion
           procss for categorig quty prblems notig
  stdadiinterventions.                                                     provders and
                       Al, revew of hospita readmions exded
                                                                                  to patients
  intitutig
  redmtted with   31    days. Oter   new requiements include:

      Perform a signcat number       of on-site   reew in at leat 20 pcrcent of rura
      hopitals.

      Revew the reonableness and medca necity
                                                             of   iniv procures.
      Conduct a revew of ambulatory surgery procdures.

      Conduct intensifed revew of thos physicians provders, and DRGs found to
      exbit a pattern   of substandard   cae.
  ..                                                              .,




. Revew post-hospital       intervenig cae for which Medicae payment could be made,
                                                              the send admion
       that is deliered between two hospita readnions where
       withi 31 days of discharge from the fit admision.


The HCFA evluated PRO performance in thee ways. To                                                        II      Cycl        Pernt
meaure PRO actties, the HCFA requied month and
quarerJy report                sumarg
                         admiion revew, DRG

vadations, pre-admission revew, and                               other requied revew 21 6/852/86
                                                                                         12/849/8 9.

                                                                                                  9.
data. To evuate PROs more broadJy, the HCFA created the 3 11/857/86 11.
PRO Monitorig Protocl Trackig SfStem 
                                     (pROMP2).
The PROMP-2 surveyed PRO performce bianuall in
such area            as community outreach,


contrls sactons, and medica revew data Final,
                                                                       gement, internal

                                                                                          the              6 6/87-388 9.

                                                                                                         Table 3: SuperPRO
HCFA contrcted with Systemetrcs InC., al know
                                                                                              ca
                                                                                          as the



SupcrPRO, for a bianual review of approxateJy 40
                                                                     4 PRO                          from each of the



area. For each of the caes, SuperPRO repeted
                                              the PRO revew proc using both
the generic quality sceens and each PRO' s ow crteri It
                                                                                                   compaed it reults
thos of the PRO. The SuperPRO then submitted         and    report of its fidigs
                                                         s fidigs in an effort to
                                                                                          dr        fi                         to



to the HCF A. The PROs and HCFA follow-up the Super PRO'
improve PRO performance.

Th inpeon exes        one aspe of the PRO revew proc: DRG vadation. The
HCFA relies on the PRO vadation proc to ensure hospita
                                                               acccy. The                               cog
hospita must coe thir diharges accateJy for
                                             the PPS to reimbur them faJy and
                                                            ICD9- dignosis
for cot containent. Under PPS, the hospita forwd each bil' The PI groups the
and procure coes dicc to a stte Fis Intermed (P). .
                             correc DRG, reimburs the hospita
 ICD9- coes to determe thePROs                                     and sends ths

 inormtion to the HCFA. The      then revew a radom saple of these
 asignents (plus certin spc DRGs) for cog acccy.
 MEOGY
                                                                                                   two-stage saple design
 The Nationa DRG Valdation Study employed a strtied                                                     us siple radom
 ba   on hospitals and discharges. In the fit stage, the OIG
 saplig without replacement to selec 80                                     hospita from each of               thee be siz stta:
 Hosta with les than 100 be          100299                                 be
                                                    and 30+ be. Tbe design excluded
 spty     intitutions (e.g. , peiatrc, rehabiltation, and pschiatrc hospita), facities in
                                                                          Jers,
 States not using prospecive payment at the tie (i.e., New York, New c:cuation of
 Machustts and Maryland), and hospita not contn"butig data           to the
                                                                   One  saple hospital
  the inti                    asigned to diagnosis-related groups.
                      relatie weights



  IUs. Gt                                                 At                                    0f of     HtIf.          JJ    PRO


          hI Rq. 

                     Se

                                Sq
                               A4m NtI
                                              12, 198; 53 (116): J523.
                                                                                    (%)




                                                                                                   actal collecton of
termated its Medicae eligibilty between the study pcriod and             913                                       acute
medica records, leavig a fit-stage sap1e with 239 from a popu1ation of 4,
cae hospita.
         stage, a sytemic Be sie
In the send                                                                                       c:100 1-2 30+ Totl
radom sap1e se1ected up to 30
Medicae patients                                             HosDitals
                                    to other poplaion                                             2.53 1,60 774 4, 913
                                (including


pcrsns trferred                              Sam                                                  79 80 80           23
hospita and those                   who died)
                                                                                                   5 3. 1 3.6 8.
from each of the 239 hospital for                                 is

the fit       hal of Fisca                   Yea   1985.     Pop':io (00, 00)
                                                                         hopils      (00)         18.2 59. 5 144.7 22.
If the hospita dicharged fewer
th 30 patients durg th
         avable dicharges Saming     fr
                             Tab 4: Sa fr
                                                             Sa

                                                             Sam
                                                          0) (1.6) (3.
                                                                                                  2.276 2.38 2.38 7,
                                                                                                  (12.5) (4.

were se1eced. The OIG - then
period al 


                                    076 medca recrds selected. With caefu1
                                             copy of each of the 7,
reueste a cop1ete 

follow-up and se1ece use of subpona the OIG
                                                                                    ultiteJy obtaed 7,050 char
                                                                al                                    Medcae

(99.6 percent). The sap1e accateJy represented the popultion of
 benecies dihaged durg Fis Yea                                         1985.


 The OIG contrcted with the Heath Data Intitute                                     of   Legton, MA to          reabstrct the

 DRGs on a blided basis. Accited Recrd                                    Technci             enmin ed     each   cha and
 convrt the supportble diagnoss and procures into ICD9-.                                                   coes. A
 Regitered Recrd                         cog
                                    Adtrtor superved the         te
                                                    and contrctor physician

 pred     spty   advce about spc                 questions. If the rebstrcted DRG diered
                                                                 A physician
 from the DRG paid, a physician evuate                                 the char on a blided bais.

 pael decded
dicut
                                       percent of the entie saple radoml
                                              categoritions. Five
                                                               the acccy
 underwnt a sed, blided recg by a dierent ART to meaurno signcat
  diepaes in the rebstracton pro
  the reabstrcton method010gy.

                                                       reedTh quty control           pr
                                                                       (agrent 0.95, kappa 0.856, Z                 2.12).


  The OIG subsuentl asked the PROs          Percent
                bd rea trcted the roar

  and if so, the resu1ts of the        The
          rccg.
  PROs reported reabstrctg 1,728 of the      20 ..

    050 sap1e disharges, 23.9 pcrcent

  when weighted by disharges. Smaler

   hospita had              signcady higher                rates of

   PRO rebstracton (Ch-squae 28.5, 2 df,                                                   c100       100-299        300..
   Pc: 0.   00 1).        AppropriateJy, the               "F 198
   National DRG Validation Study Fin
                                                                                                     Bed size


                            tht smaller Fvn 1:
    Report" prevousJy noted 

                                                                                      PR              by



    intutions have higher rates of bilg
                                        errors.

                                                  FINDINGS

PRO
                                                        char from rual (Mantel-Haensl        56.   , 1
The PROs disproportonateJy reabstrcted                                    , 1 df P         OOI). As
df P    OOl) and nonteachig hospita (Mantel-Haenszel '?.                                   hospita
reported by the    "F
                   1985 National DRG Valdation Study: Final                     ReporttI
                                                   diproportonate rates of bilg errors when
exhibiting these characteristics suffered                             concentrted
controllg for bed   size. The PRO selecon of dichages appropriateJy
                                                         (Appendi 1).
on intitutions with a high yield of reabstracton errors.

Patient demogrphic charcteritics                  for                                         0--'"
                                                                                              m Iot-­
the 1,728   records reabstracted by PROs
did not   signcatly dier ftom the 5,322
remaig recrds       in average lengt of
sty, mortity rate,      or sex distnDution.

 However, the former subsample
 averaged slightly older than the latter

                        test 4. 5,   1727 df,

 group of patients (t-
       025). The PRO saple therefore
                                 Medcae
                                                        Fi 2: PR re      by pa
 broadJy represented the al 

 cas. (Appendix 2).
 PRO CODING ACCUCY

 When weghted by dicharges, the PROs Percent
 atted 78.1 pcrcent accuracy
                          acccy
                             in their 100                                                            t: FI

                                                                                                     E PRO

  coing reabstractons.       Their
  improved signcatJy in larger hospita
  (Ch-squae 11.2 2 df, P=O.OO).

  Controllg for hospital siz, PRO

  rebstrcton acccy signcatl

  deteriorated in rul (Mantel-Haensl
                                       8, 1 df fiThe PROs increaed their effciency by
                                                                       . S eO   size

  14.7,   1 df P   OOl) and for-       profit 

                                                              3: PR

  hospita (Mantel-Haenszel 3.
  P-=0.05), but not in nonteachig intitutions.
  greater sureilance of ru hospita but then deceaed their effeceness -wth
                                                                          lower

  cog accacy in rural hospita.   (Appendix 3).

   InterestigJy, hospitals
                                      accteJy
                             coe more 
     than the PROs intended to overse                       them.
                                               Final Report" found that the 

   The "F 1985 National DRG Valdation Study: dicharges. Ths proporton

   acctely paid 81.4 percent of bils, weigted by
signcantly exceded the PROs' 78.1 percent coing accacy PROs,
                                                       (Ch-squae 25.                          8, 1 df,

    OOl). Among the 1,728 discharges reabstrcted by the      the PI accately
pad 81.8 percent, a 1.05        rate ratio.     Th fidig applied acros al           hC?pita sizs and

demographic characteritics. 
          (Appendi 4). The subsamples of dichages rcabstracted
correcJy and incorrectJy by the PROs did not dier                 signcatl in patient
demogrphics. (Appendix            5).
                                                      PRO                    OUTCOtlE
                                                      ( DRGJ
                                                      Agree
                                                                      1282 True posi ti ves
                         Ac:cura te

                                                      ( eorect)
                                       1. 3BB
                                                      Disagree
                                                      (Incorrec   t) 106 False negatives
 1 . 728
                                                      Agree
                                                                         299 Type 1 false pos1     ti ves
                                                      ( Incorrect)
                          Inaccurate                   Disagree
                                          340                            27 Type 2 false positives
                                                       ( Incorrect)

                                                       Disagree           14 True nega ti ves
                                                       ( eorect)
 Fi        4: PRO   co
                                                                    If the PI made
 A PRO' s reabstcton of the PI' s payment has fie poible outcomes.
                                               (tre positie) or digree (fale
 the accrate payment, the PRO ca either agree                   fae positie) or
 negatie). If the PI paid inacctely, the PRO ca agree (ty 1          diharge to
 digree. The latter digreement may cause the PRO to reabstract the
 either the correc DRG (tre negatie) or to a dierent, incorrec DRG (ty 2 fae
 potie). (Figue 4).
                                                                   Ace lne
 Of th saple s         1, 388   bil    accteJy                     fisl Intermiarv
DRG
 reimbur by the Fl the PRO                                                                          Tot
 correc agreed in 1,22 caes; a                                   Co                                 129
  seitty of 92.3 percent. Howr,                       PRO (
                                                      DRG (      Inec
                                                                           1282
                                                                            106
  the 34 bil        inaccrateJy   pad by the Fl
  the PRO correctJy disagreed and                                Total     138          340         1728
  substituted the right DRG in onl
  ca
                                                14

                                                      Sensitiv -      923%        Spe -= 4.   1%
            a 4. 1 pcrcent speifcity.

                                                      T8b 5: PRO      co
  For ths subsample as a whole, PI                                  72) of
  reimburment alone would have ben correc in 80.3 pcrcent (1388/1,0 pcrcent
  diharges. The PRO revew deceaed tota correc payments to 75.
                  07 rate ratio. Under Bayesian anaJyis, if the PRO maes no DRG
  (l,/1,728), a 1.

changes, it has 81. 1 percent (1,282/1, 581) chance of being correct. However, if the
PRO elect to change the DRG reimbured, it has a 9.                   chance of
                                                                   5 percent       (14/147)


being correct. The PROs would therefore make a higher proporton of correct


nres.
deciions by not checkig the FI's payment at al. Th



Outcomes               Number
                                           Relative weiaht
                                                           minimi7.e both review




                                                     Correct
                                                                    strategy


costs and errors. When the PROs do make DRG changes, they are wrong 10 out of


                                             FI                            PRO
                                                                                          Percent increase
                                                                                          (decease)

True poitive             1282              1157        1157               1157
 False negative           106              1140        1140               0707          (4.
Type 1 false poitive      299              0755        947                0755          14.
Type 2   fal poitive                      1.20         0757               0498          (2.5)


Total
True negative                              2998        0247               0247         (26.

                         1728 1. 1118                  0845               1042
 Ree we
Tab 6:                  by PRO

DRG EFFECT

Not only do the PROs have worse coding accuracy than the FIs, they then compound
the fiancial effect of their mitakes by upcoding. Overall, the relative weights selected
by the PROs , whether for correct or incorrect DRGs, exceed by an average of 1.9
percent either the correct relative weights or the relative weights paid by the PI. Type
1 fale positives pricipally cause the acceleration in overpayment. However, other
outcomes alo selectively contnbute to it.

Of the 106 bils that the FI accurately
reimbured and with which the PRO then
                                grouped

incorrecty diagreed, 27.4 percent
                                                               DRG paid          No.          Paid
                                                                                              Relative weicht
                                                                                                           PRO

to only five DRGs. On average for these                        Pneumonia 9                     0914             783

                                                               Heart failure4                  0300             4150

high frequency DRGs , the PRO incorrectly 127                                                  9200             9314
                                                               Arythmia 4
assigned their bil to   higher relative


weights than the PI accurately
Although thi trend did not continue for

                                          paid.
                                          182
                                                               Angina
                                                               Esophagitis 7
                                                                                               7470
                                                                                                6121
                                                                                                                7305
                                                                                                                9646

                                                      Subtotal 29 0. 8842 0. 9255
less frequent DRGs, selective
                                                      Other
                                                      Total    77 1. 1868 1. 1254
improvement in PRO coding accuracy of
false negatives could reverse the net over-
reimbursement due to PRO coding errors.
                                                          106 1. 1140
                                            Table 7: Acrae pame
                                                         negates)
                                                     th PRO      (f                            in ch      1. 0707

 Similarly, 29. 8
              percent of the 299 bils inaccurately paid by the FI and with which the
 PRO incorrectly agreed group to seven DRGs. For each of these DRGs, the PRO also
 confrmed an average reimbursement higher than the correct DRG. Less frequent
 DRGs and the subsample as a whole demonstrated the same upcoding. Overall, these
        . '
  Among 27   inaccrate bils               II          DRG                Number              Paid Coec
                                                                                             J=elative weicht

  that the PROs changed to
  diferent, incorrect DRGs                14 Ceebrovasla          acnt                                          783

                                                                                                                0177

                                          87 Respiraor failure                                                  857
. 481 pcrcent group to six 88 Chronic                       obruive
  DRGs For these DRGs
                        alo 89pulmo dis
                                Pnemoia  . 18 1.0914  0.
                              Hea failure
                                                                                                                9827
  the PRO selections                       12 1. 03
                                           11 0.907
                                                     0.
                                                      0.
                                                         954

                      false   Esgitis
                            132AtheOSis
  overpay the hospitals to a 127
                                           14 0. 6121 0.                                                        8115


                                               Otr
                        the Subotal 89 1.0704 089
  greater extent than the Fls. .
182
  Overal ty 2
  poities dow coe
  FI' relatie weight by 2.
  percnt. The
  Dumber of tye 2
                    small




                   tre
                              false
                              negatives
                                               Total
                                          Tab 8:
                                          ages  (tlne po)
                                                      pa     fa
                                                                             210 1.0776 0:96
                                                                             29 1.0755 0.947
                                                                             wi wh th                  PR




  poities and

   lits their net eff ct On PRO upcing of FI inacccies.
   The PROs' cog errors                                                                        elative wei
   cot Medicae a mimum                                DRG                 Number              PRO            Coect
   of $172.9 mion in Fiscal
   Yea 1985 and potentially                    14      Cebrov
                                                       Ch obe
                                                                                                                690
                                                                                                                708
   lager sums in subsquent
   yea Prosive Part A
                                               88
                                                       pu diase
                                               89 Pneumia
                                                                                                                 1547
                                                                                                                 739
                                                29 Metic                                                         697
                                                32 Uri trct Inecio

   payments totaed $27
   bilon in Fis Year 1985.
                                                                                                6121
                                                46 Unred prure

                                                Otr %1 1.
                                                                                                7016

   The PROs reabstracted
   33.1 pcrcent of diharges,
   skewed towds high
                                                Subotal
                                                Tot     13 0.93
                                                        14 1.
                                                                0.
                                                              157                                0498 1.0757
                                                                                                                 859
                                                                                                                1.298
   reimbursment DRGs.
   The PROs therefore made Tab 9:
   their 1.9 pcrcent                           dfer
                                                            lne DRpa fa po)
                                                                      (t 2
                                                                             wi wh th PR 

                                                                                                                        to a .



   ovyments on at least

   $9. 1 bilon of coing revews.

                             RECOMMENDATIONS


                                               of PRO reabstrcton errors
. The HCFA should determe whether the proporto
   has decreaed.


   The HCF A shou1d determe    whether the SupcrPRO alo    fids th   ditribution of


   changes to PRO coding.


. Tbe HCFA should deteime      wheter internal quaty controls of the PROs increase
   the accuracy of their DRG reabstrctons.

In the Apri 24 comments on a  dr     of th inpeon, the HCFA stated that it has
                                          acccy of PRO coing. We agree that
taen a number of actions to improve the
these actons respond to tle intent of these recmmendations.
                                                   these
                                                            The OIG is now
                                                         independently generated
collectg FY 1988 PRO COing data. Comparon of                               cog
data setswi measure the progres achieved by the HCFA in improvg PRO
accacy.
 (%)




\ppenclX 1:    PRO     rew by hopi
Number                 ed size                                                      Discharge weigted
(per nt PRO           c: 100      100299               300+            Tota         average
reabstractions 1



Urban               119 (26.      323 (19.         471 (21.             940             (21.
Rural               528 (29.      22 (31.           65 (45.             788             (37.

Teachig              19 (31.       94 (20.         233 (17.                             (21.
Nonteachig          628 (28.      451 (23.         303 (28.             1382            (26.4)

Profit               50 (23.           99 (23.         14 (23.           163            (23.
Nonprofit           597 (28.      44 (22.          522 (224)            1565            (23.

Total               647 (28.       545 (22.        536 (225)            1728            (23.




Apnd            PRO     re        by    pant
                                                  delOra
                                ed size                                    Wei   hted            rcenta
                               c: 100          100299            30+       Saple          Disharge         Hospita

             PRO revew 75.                       74.             72.           74.                 73.        74.
Age                                                                                                72.8       74.
(yea)        No revew            75.5            73.             71.           73.3

              PRO revew 47.                      45.             47.           46.                 46.        46.
Sex
 (% male) No revew               41.             45.             48.           45.2                46.        44.

 l.S          PRO reew                            7.2             8.7            7.3

                                                                                                    7.5

 (days)       No reew                             7.5                            7.2

 Mortity PRO revew                                 7.3
              No revew
        (y)


.ppenclX 3: PRO
            

                    cong acccy by             ho dera
                                                                         iih   ted      rcenta
l1umber             ed size
Percent correct) c: 100     100299             300+ Tota           Saple             Discharge       Hospita

                                        398 (79.          730        (77.                (78.            (75.
urban         87 (73.        245 (75.
                                                          566        (71.                (72.            (71.
Rural        370 (70.        172 (77.5)  24 (63.

                                                     271             (78.                 (79.           (67.
reachig         11 (57.        72 (76. 6) . 188 (80.
                                                                     (74.                 (75.2)         (73.
Nonteachig 446 (71.           345 (76.5) 234 (77.2) 1025

                                                           112       (68.                  (67.             (68.
Profit         38 (76.         68 (68.        6 (42.
                                            416 (79.7) 1184          (75.                  (77.             (74.
Nonprofit     419 (70.        349 (78.

                                            422 (78. 7) 1296            (75.               (78.             (73.
Total         457 (70.        417 (76.



Ap 4: R cong accra ho dera               by
                                                                                Wei      ted       rcenta
Number                ed size
(percent accte)     c: 100      100299           300+            Tota           Saple Dicharge                   Hospita

                                                                  761                 (82.2)          (83.0) .       (81.
Urb                94 (79.       26 (83.      399 (84.
                                               51 (78.            627                 (78.            (79.           (77.
Rur               391 (74.       185 (S3.

                                                                  290                                 (81.2)         (75.
                                  77 (SI.      200 (85.                                (7S.
Teachig            13 (68.
                                                                                                      (81.5)
        (79.

Nontechi          472 (75.       376 (83.      250 (82)          1098                  (SO.


                                                                   127                 (74.           (72.6)         (76.4)
 Profit             39 (78.       79 (79.        9 (64.

                                                                  1261                 (81.0)         (82.4)         (79.
                  44 (74.        374 183.      441 (84.5)
 Nonprofit
                                                                  1388                 (SO.           (81.            (79.
 Tot               48 (75.       453 (83.      450 (84.




 Ap 5:           PRO cog         accy by         pa
                                  Correc      Incorrect
                                 74.           74.

 Age                                           46.

 Sex (% mae)                     46.
  LOS (days)

  MortJity (%)

ApIX 6: Stca
1. M       dWi

2. P      dWi

3. SE     = (dW?SE?)l!2

4. SEp = (dWi2pi(Pi l)/Ni)l!2

Where:
d = sumation

  p -= the popultion mean,
P p = the proporton of a populatio with some characteritic,
SEt =. the stadad error of the mean
SEp = the stadard      error of the proporton,

       = the stta weights,

       = the stta means

       = the strta proportons,

 s& -= the stta stdard errors.
 When cacutig statitics for meaurg relationships in cros-tabulations  BOTEC used the
                                                                 strtum. We then
 followg procure: "Firt, we caculated tables sepateJy
                                                       for each.

 weighted each entr of each table by its
                                             sttu weight, sumed thesttu
                                                                    entres to get an
 overaD table, and divded each entr in
                                            th table by the sum of the     weights. The
 resultig weighted table
     wa used to cacuate the stengt of saple relationships and the
 sttitica sicace          of such relationships.
                                                          sttitica analis of Nationa DRG
  One fuer complication ocrs frequentl in BOTEC's              is upon hospita at other
  Valdation Study data. "Smeties
                        

                                   the foc of our       anisca
  ties it is upon indivdual Medicae cas. In the former
                                                                  the stta weigts we use

  are the iners stta saplig
                               rates for hospitals i.e., the ratio of the tota number of
                                                      which National DRG Valdation Study
  hospita in each strtum to the number of hospita
  sapled from tht sttum. In the latter cae the
                                                   strta weights used are the inverse
                                                                         number of Medicare
  saplig rates for Medicare caes, i.e., the ratio of the tota estiated Valdation
  ca in each strtumtheto the number of Medcare caes which National DRG
                         strtum.
  Study sapled     frm
